No. 20-7474
EZRALEE J. KELLEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief For Amici Curiae The Howard University School of Law Human and Civil Rights Clinic
and The National Association For Public Defense In
Support of Petitioner was sent via Federal Express on
May 5, 2021 to the U.S. Supreme Court. Additionally,
a copy of the Amicus Brief was sent to counsel for the
Petitioner and Respondent by electronic mail. The
parties have consented to electronic service.
Matthew A. Campbell
Federal Public Defender,
District of the Virgin Islands
1336 Beltjen Road
Suite 202
Saint Thomas, VI 00802
matt_campbell@fd.org
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW

Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
/s/ Tiffany R. Wright
Counsel of Record

